 COMPILING AND REPORTING FY 1999 NAVY GENERAL FUND
         INTRAGOVERNMENTAL TRANSACTIONS

Report No. D-2000-146                          June 12, 2000




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932 or visit the Inspector
  General, DoD, Home Page at: www.dodig.osd.mil.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DFAS                  Defense Finance and Accounting Service
OMB                   Office of Management and Budget
USD(Comptroller)      Under Secretary of Defense (Comptroller)
                        Office of the Inspector General, DoD
Report No. D-2000-146                                                      June 12, 2000
 (Project No. D2000-FC-0046.002)

                  Compiling and Reporting FY 1999 Navy
                General Fund Intragovernmental Transactions


                                   Executive Summary

Introduction. Public Law 101-576, the “Chief Financial Officers Act of 1990,”
November 15, 1990, as amended by Public Law 103-356, the “Federal Financial
Management Act of 1994,” October 13, 1994, requires DoD and other Government
agencies to prepare annual audited financial statements. This is the third in a series of
reports related to the FY 1999 Department of the Navy (Navy) General Fund financial
statements. For FY 1999, the Navy reported $125.8 billion in assets, $54.4 billion in
liabilities, $83.9 billion in budget authority, and $8.1 billion in intragovernmental
transactions. Intragovernmental transactions are transactions that occur within and
among general fund organizations, DoD, and the Federal Government. Intra-
governmental transactions should be disclosed or eliminated, as appropriate, when an
entity prepares consolidated financial statements.

Objectives. The audit objective was to determine whether the Defense Finance and
Accounting Service Cleveland Center consistently and accurately compiled and reported
intragovernmental transactions for the FY 1999 Navy General Fund financial
statements. We also reviewed the Defense Finance and Accounting Service Cleveland
Center management control program as it related to our objective.

Results. FY 1999 was the first year that the Defense Finance and Accounting Service
Cleveland Center accumulated and reported intragovernmental transactions for the
Navy, and it made a commendable effort in identifying and reporting $8.1 billion of
intragovernmental transactions for the Navy. However, because of the lack of
guidance, complete standard general ledger control systems, and effective policies and
procedures, the Defense Finance and Accounting Service Cleveland Center was not
able to identify and report all intragovernmental transactions consistently and
accurately. As a result, FY 1999 financial statements of the Navy were subject to
misstatement and could not be relied on to be a complete and accurate presentation of
financial reporting. The FY 1999 DoD-wide financial statements were also similarly
affected.

Summary of Recommendations. We recommend that the Director, Defense Finance
and Accounting Service Cleveland Center, maintain audit trails for all
intragovernmental accounts receivable, revenue, and unearned revenue obtained from
other trading partners for all levels; reconcile seller-side and buyer-side information;
and document procedures used to collect, verify, and report intragovernmental
transactions.

Management Comments. The draft report was issued on March 31, 2000, and we
received no comments. We request the Director, Defense Finance and Accounting
Service Cleveland Center, respond to the final report by July 12, 2000.




                                             ii
Table of Contents

Executive Summary                                                i

Introduction
     Background                                                 1
     Objectives                                                 2

Finding
     Identifying and Reporting Intragovernmental Transactions   3

Appendixes
     A. Audit Process
         Scope                                                  12
         Methodology                                            13
         Management Control Program                             13
         Prior Coverage                                         13
     B. Report Distribution                                     15
Background
           Public Law 101-576, the “Chief Financial Officers Act of 1990,”
           November 15, 1990, as amended by Public Law 103-356, the “Federal
           Financial Management Act of 1994,” October 13, 1994, requires DoD to submit
           to the Office of Management and Budget (OMB) annual financial statements that
           the Inspector General, DoD, audited. This is the third in a series of reports
           related to the FY 1999 Department of the Navy1 General Fund financial
           statements. Appendix A shows the other two reports under Prior Coverage.
           This report discusses the reliability and effectiveness of the policies and
           procedures used to report intragovernmental transaction information for the
           FY 1999 Navy General Fund financial statements.

           Accounting Functions and Responsibilities. The DFAS Cleveland and Kansas
           City Centers provide finance and accounting support to the Navy and Marine
           Corps. The support includes maintaining accounting records and preparing
           financial statements from general ledger records and status-of-appropriation
           financial data submitted from the field organizations. The DFAS Cleveland
           Center is responsible for compiling financial information that other Navy
           organizations submit. The FY 1999 Navy General Fund financial statements
           reported assets of $125.8 billion, liabilities of $54.4 billion, and budget
           authority of $83.9 billion.

           Transactions Requiring Elimination. Intragovernmental transactions are
           transactions that occur within and among general fund organizations, DoD, and
           the Federal Government. When an entity prepares consolidated financial
           statements, it should eliminate the effect of financial transactions among its
           components and should report only transactions with outside parties.
           Government financial statements are also required to show as required
           supplementary information intragovernmental account balances that reflect entity
           amounts with other DoD and Federal agencies that should be eliminated in
           consolidated financial statements of those organizations. Navy General Fund
           organizations are routinely involved in transactions involving sales and
           purchases of materials and services with other Navy General Fund and Working
           Capital Fund organizations, DoD Components, and other Federal agencies.
           When those kinds of transactions occur, the transactions are to be closed, and
           when appropriate, eliminated from the various levels of financial statements.
           Sales of goods or services between Federal entities require three levels of
           intragovernmental transactions to be identified:

                         •   Level 1: transactions involving sales between DoD and other
                             Federal agencies, such as between the Navy and the Department
                             of Commerce;




1
    The Department of the Navy includes both the Navy and Marine Corps. However, in this report, the
    term “Navy” will refer to the Department of the Navy.

                                                    1
                 •   Level 2: transactions involving sales between DoD reporting
                     entities, such as between the Navy Working Capital Fund and
                     the Navy General Fund; and

                 •   Level 3: transactions involving sales between components of the
                     DoD financial reporting entities, such as between Navy General
                     Fund appropriation groupings.

     During FY 1999, DFAS Cleveland Center identified $8.1 billion in
     intragovernmental transactions for levels 1, 2, and 3. Of the $8.1 billion in
     intragovernmental transactions, $1.9 billion in receivables and $1.3 billion in
     revenue were eliminated from the FY 1999 Navy General Fund financial
     statements.


Objectives
     The audit objective was to determine whether DFAS Cleveland Center
     consistently and accurately compiled and reported intragovernmental
     transactions for the FY 1999 Navy General Fund financial statements. We also
     reviewed the DFAS Cleveland Center management control program as it related
     to our objective. Appendix A discusses the audit scope and methodology and
     our review of the management control program.




                                         2
                   Identifying and Reporting
                   Intragovernmental Transactions
                   DFAS Cleveland Center made a commendable effort in identifying and
                   reporting $8.1 billion of intragovernmental transactions for the FY 1999
                   Navy General Fund consolidated financial statements. However, the
                   process used to account for intragovernmental transactions did not
                   accurately identify and eliminate the effects of all intragovernmental
                   transactions that occurred within and among Navy appropriations and
                   organizations, DoD, and other Federal agencies. The accuracy of the
                   reported intragovernmental transactions was questionable primarily
                   because DFAS Cleveland Center and its supporting accounting offices
                   did not have complete transaction-driven general ledger accounting
                   control systems to accurately identify and report intragovernmental
                   transactions. Also, the conditions occurred because of the following:

                        •   the Under Secretary of Defense (Comptroller)
                            (USD[Comptroller]) did not issue detailed guidance to allow
                            sufficient time for the Military Departments and Defense
                            agencies to implement the guidance in preparing their financial
                            statements while waiting for a permanent solution;

                        •   DFAS Cleveland Center did not have effective management
                            controls needed to ensure that the process used to collect,
                            review, and adjust data among trading partners was thoroughly
                            documented and fully complied with DoD form and content
                            guidance and Key Accounting Requirement2 No. 8, “Audit
                            Trails”; and

                        •   departures from reporting requirements were not fully disclosed
                            in the notes to the financial statements.

                   As a result, the FY 1999 financial statements for the Navy were subject
                   to misstatement and could not be relied on to be a complete and accurate
                   presentation of financial reporting. The FY 1999 DoD-wide
                   consolidated financial statements were also similarly affected.




2
    DoD Regulation 7000.14-R, “Financial Management Regulation,” volume 1, “General Financial
    Management Information, Systems and Requirements,” June 1999, identifies 13 key accounting
    requirements. Key accounting requirements are a composite of General Accounting Office, OMB,
    Department of the Treasury, and DoD regulations. All DoD accounting systems must comply with key
    accounting requirements.

                                                   3
Guidance for Reporting Intragovernmental Transactions
    OMB Guidance. OMB Bulletin No. 97-01, “Form and Content of Agency
    Financial Statements,” October 16, 1996, and its amendment M-99-03 dated
    November 20, 1998, require agencies to show consolidated financial statements
    adjusted for intra-entity eliminations.

    DoD Guidance. To implement the OMB reporting requirements, each fiscal
    year, the USD(Comptroller) develops and issues policy for the Military
    Departments and Defense agencies to implement in preparing their financial
    statements. Because of the systemic problems in the DoD accounting and
    financial management systems, DoD Regulation 7000.14-R, “Financial
    Management Regulation,” volume 6B, “Form and Content of Department of
    Defense Audited Financial Statements,” is updated annually to reflect the
    progress made to its current systems. For FY 1999, volume 6B was updated in
    October 1999. However, the implementing guidance on intragovernmental
    transactions was not included in volume 6B. In November 1999, DoD issued
    draft guidance on intragovernmental transactions, but the draft guidance was
    never finalized.

    DFAS Interim Guidance. The DFAS drafted chapter 13 to volume 6B, DoD
    Regulation 7000.14-R, on August 31, 1999 (this report will refer to it as DFAS
    interim guidance). The DFAS interim guidance was issued as a result of the
    recommendation made by Inspector General, DoD, Report No. 98-204,
    “Reporting and Disclosing Intragovernmental Transactions for the FY 1997
    DoD Consolidated Financial Statements,” September 21, 1998, and Naval Audit
    Service Report No. 048-99, “Fiscal Year 1998 Department of the Navy
    Principal Statements and Working Capital Fund Consolidated Financial
    Statements Eliminating Entries,” July 22, 1999. The DFAS interim guidance
    requires that DoD accounting centers and DoD Components work internally,
    and with their customers, to extract seller-side information from their
    intragovernmental (DoD and non-DoD) trading partners because DoD presumed
    that the amounts of intragovernmental accounts receivable, revenue, and
    unearned revenue reported by the seller are correct. Furthermore, the guidance
    states that specific seller–side intragovernmental balances should be exchanged
    and compared with summary buyer-side data at the appropriation or Defense
    Working Capital Fund business-area level in an effort to review and adjust
    intragovernmental activity and prepare annual financial statements that eliminate
    the effect of intra-entity transactions. Because the USD(Comptroller) had not
    finalized its draft guidance, DFAS Headquarters instructed all the DFAS centers
    to use the DFAS interim guidance to accumulate and report FY 1999
    intragovernmental transactions.




                                        4
Processing Intragovernmental Transactions
    The following table shows a breakout of the $8.1 billion of intragovernmental
    data shown on worksheets that DFAS Cleveland Center prepared for the Navy
    General Fund.


                            Summary of Seller Data Used for
                             Intragovernmental Eliminations
                                      (in thousands)

     Elimination            Accounts                        Unearned
     Level                  Receivable        Revenue       Revenue        Total

     Level 1                $ 163,480        $ 797,871         $0        $ 961,351
     Level 2                   558,061        3,408,280         0         3,966,341
     Level 3                 1,888,546        1,337,003         0         3,225,549
       Total                $2,610,087       $5,543,154        $0        $8,153,241



    However, the process that DFAS Cleveland Center used to account for
    intragovernmental transactions did not accurately identify and eliminate the
    effects of all intragovernmental transactions that occurred within and among
    Navy appropriations and organizations, DoD, and other Federal agencies.

    Adjusting to the Seller Records. Because of the lack of reliable accounting
    and financial information, DFAS Cleveland Center could not use the data in the
    departmental-level general ledger accounts as a source for accumulating,
    eliminating, and reporting intragovernmental transactions. Instead, DFAS
    Cleveland Center used the seller information on accounts receivable, revenue,
    and unearned revenue as basis for reporting intragovernmental transactions.
    However, using the sellers’ information to report intragovernmental transactions
    resulted in a series of adjustments because the amounts recorded for accounts
    receivable, revenue, and unearned revenue in the sellers’ records differed from
    the amounts recorded in the departmental-level general ledger accounts. For
    example, sellers’ accounting records showed the total revenue of $6.5 billion,
    while the departmental level general ledger showed the total revenue of
    $5.1 billion.

    Maintaining Audit Trails for Intragovernmental Transactions. The DFAS
    Cleveland Center was unable to maintain complete audit trails for the
    $8.1 billion in intragovernmental transactions reported in the FY 1999 Navy
    General Fund financial statements. DoD Regulation 7000.14-R, volume 1,
    “General Financial Management Information, Systems and Requirements,”
    June 1999, requires that audit trails including documentation be maintained so
    that auditors can ensure that transactions are properly accumulated, classified,
    coded, and recorded in all affected accounts and later reported in the proper

                                         5
    financial statements. Our review of the process used to collect, review, and
    adjust data among trading partners before eliminating intragovernmental
    accounts showed the following:

               •   DFAS Cleveland Center did not always use the information
                   collected from the trading partners for accounts receivable and
                   revenue as the source for reporting intragovernmental
                   eliminations. Instead, it used the departmental-level general
                   ledger accounts as the primary source for reporting.
                   Accordingly, DFAS Cleveland Center did not collect
                   information for unearned revenue for all three levels because
                   unearned revenue values were not reported in the departmental-
                   level general ledger accounts.
               •   DFAS Cleveland Center collected seller-side information only
                   for levels 1 and 2, accounts receivable and revenue, and
                   subtracted level 1 and level 2, accounts receivable and revenue,
                   from the departmental-level general ledger accounts to arrive at
                   level 3, accounts receivable and revenue.

               •   DFAS Cleveland Center exchanged sellers’ information with
                   other trading partners for only level 2.


Reporting Intragovernmental Transactions
    The lack of adequate general ledger accounting control systems to accurately
    accumulate and report financial information caused reported intragovernmental
    transactions to be unreliable. Also, the lack of timely policy guidance from the
    USD(Comptroller) and management controls within DFAS Cleveland Center,
    and failure to comply with DFAS interim guidance, contributed to the
    unreliability of reported intragovernmental transactions.

    Complete Standard General Ledger Accounting Control Systems. DoD
    Regulation 7000.14-R, volume 1, states that DFAS is to maintain and operate a
    central double-entry general ledger. The central double-entry general ledger
    and its subsidiary ledgers and reports serve as the source database for producing
    financial statements for Military Departments and Defense agencies. However,
    prior audit reports show that DoD financial accounting systems are not fully
    compliant with regulatory and statutory requirements. For example, Inspector
    General, DoD, Report No. D-2000-041, “Deficiencies in FY 1998 DoD
    Financial Statements and Progress Toward Improved Financial Reporting,”
    November 26, 1999, states that auditors continued to identify and report
    deficiencies that prevented favorable audit opinions on DoD financial
    statements. Favorable audit opinions were not possible because of the lack of
    adequate general ledger accounting control systems for compiling accurate and
    reliable financial data. The report also states that until DoD deploys financial
    management systems that comply with the Chief Financial Officers Act of 1990


                                        6
and the Federal Financial Management Improvement Act of 1996, auditors will
not be able to perform sufficient audit work to render a favorable audit opinion
on the DoD financial statements.

The Need for Specific Policy Guidance. The USD(Comptroller) did not issue
policy guidance in a timely manner to compensate for known systemic
problems. Such systemic problems included the lack of complete transaction-
driven general ledger accounting control systems. Naval Audit Service Report
No. 048-99 recommended that the USD(Comptroller) and the Director, DFAS,
provide detailed specific guidance in a timely manner for processing
intragovernmental transactions to ensure consistency and completeness of
financial statement reporting and disclosing. The USD (Comptroller) and the
Director, DFAS, concurred with the recommendation. However, DoD did not
finalize form and content guidance for the FY 1999 financial statements until
October 1999, and guidance on intragovernmental transactions was not finalized
before issuing this audit report. As a result, the Military Departments,
including the DFAS centers, did not consistently and accurately identify and
report all intragovernmental transactions.

Inspector General, DoD, Report No. D-2000-144, “Compiling and Reporting
FY 1999 Navy Working Capital Fund Intragovernmental Transactions,”
June 9, 2000, includes specific recommendations to the USD(Comptroller)
regarding the need to finalize the draft guidance on intragovernmental
transactions and eliminations. Therefore, this report contains no
recommendations concerning DoD guidance. In replying to Report No.
D-2000-144, the USD(Comptroller) emphasized that identification and
elimination of intragovernmental transactions is a Government-wide problem;
additional Government-wide guidance is needed, and DoD financial systems are
not capable of producing the required information to properly eliminate
intragovernmental transactions. Until adequate accounting systems are in place
and more detailed Government-wide guidance is issued, DoD plans to issue
interim procedures allowing the use of estimates based on percentage allocations
of summary balances. The USD(Comptroller) also stated that new interim
policy and procedural guidance will be included in the DoD form and content
guidance for audited financial statements in DoD Regulation 7000.14-R to aid in
the elimination of intragovernmental balances.

The DFAS Cleveland Center Management Control Structure. DFAS
Cleveland Center accounting personnel made a commendable effort in
identifying $8.1 billion in intragovernmental transactions as required by OMB.
However, additional improvements in the management control program would
ensure that the process used to collect and report intragovernmental transactions
was thoroughly documented and reviewed and that it fully complied with
applicable guidance.

           Documentation of Methodology. The DFAS Cleveland Center did
not adequately document the procedures and methodologies used to accumulate,
prepare, and report intragovernmental transactions for the FY 1999 Navy
General Fund financial statements. General Accounting Office, “Standard for
Internal Control in the Federal Government,” November 1999, requires that all
transactions and other significant events be clearly documented, and the
                                    7
documentation should be readily available for examination. In view of the new
reporting requirements by OMB, DFAS Cleveland Center must develop and
implement standard operating procedures to guide accounting personnel in
preparing the financial statements.

            Additional Disclosures. DoD Regulation 7000.14-R states that
“where individual line items of the financial statements cannot be obtained or a
substitution is made from the requirements herein, the deficiencies must be
explained and the reason for noncompliance annotated in the related footnote.”
DFAS Cleveland Center did not adequately explain in the notes to the financial
statements the reasons for departures from reporting requirements for revenue
and accounts receivable. For example, the DFAS Cleveland Center accounting
personnel reported $1.9 billion in intragovernmental transactions for level 3
accounts receivable but reported only $1.3 billion for level 3 earned revenue.
Because of the lack of audit trails, we were unable to determine the actual
understated amounts. However, it is unlikely that accounts receivable would be
more than earned revenue for the same reporting period, such as claiming
$1.9 billion in accounts receivable for a $1.3 billion contract. Additional
disclosures in the notes to the financial statements would make the
intragovernmental transactions for accounts receivable and revenue more useful
and fully compliant with DoD form and content guidance.

            Ensuring the Completeness and Accuracy of Data That the
Sellers Provided. DFAS interim guidance requires DoD accounting centers and
DoD Components to place emphasis on ensuring the completeness and accuracy
of data that the sellers provided for accounts receivable, revenue, and unearned
revenue. Our review of the process that DFAS Cleveland Center used to
accumulate levels 1, 2, and 3 intragovernmental eliminating information showed
no evidence that those requirements were fully implemented. Also, instead of
using the seller’s information to adjust the departmental-level general ledger
accounts, DFAS Cleveland Center adjusted the information received from the
sellers to match the departmental-level general ledger accounts. For example,
total revenue reported in the departmental-level general ledger for revenue was
$5.1 billion for the Navy (excluding the Marine Corps) for all three levels.
However, the seller’s accounting records showed total revenue of $6.5 billion
for level 2, which was much higher than the amounts reported in the trial
balances for all three levels. To arrive at the revenue for levels 2 and 3, DFAS
Cleveland Center did the following:

           •   reduced the seller’s revenue reported for level 2 from $6.5 billion
               to $3.4 billion because DFAS Cleveland Center believed that the
               amounts were overstated and because the amounts obtained were
               much higher than the amounts reported in the general ledger for
               all three levels, and

           •   subtracted the revenues for levels 1 and 2 from the amount
               reported from the general ledger to arrive at level 3 revenue.

That practice was not in compliance with DFAS interim guidance, which
requires that the accounting centers maintaining the departmental-level general

                                    8
ledger accounts for the buyer-reporting entity make departmental-level adjusting
entries to balance the appropriate account balances with the seller’s records.

           Reporting Unearned Revenue. The FY 1999 Department of the
Navy consolidated financial statements did not include intragovernmental
eliminating entries for unearned revenue. The financial statements lacked the
entries because DFAS Cleveland Center used the departmental-level general
ledger accounts as a basis for collecting and reporting intragovernmental
eliminations for accounts receivable, revenue, and unearned revenue. Because
the general ledger accounts showed zero for unearned revenue, DFAS Cleveland
Center did not attempt to collect and exchange information to other trading
partners. However, DFAS interim guidance requires DoD accounting centers
and Army Corps of Engineers financial centers to accumulate seller-side data
and use them to adjust buyer-side accounts at the reporting entity level. The
guidance further requires DoD accounting centers to work with all level 1, 2,
and 3 trading partners to obtain their aggregate accounts receivable, revenue,
and unearned revenue amounts for the appropriation groups.

Because DFAS Cleveland Center did not collect the seller-side unearned
revenue, we obtained and reviewed FY 1999 Army, Air Force, and Other
Defense Organizations’ financial statements to determine whether the sellers’
unearned revenue was reported in those statements. Our analysis showed that
unearned revenues were reported in the financial statements for all three
organizations reviewed.

            Appropriation Groupings. Because of time constraints and the lack
of specific guidance, DFAS Cleveland Center was unable to obtain support from
supporting accounting offices for allocating the $5.5 billion of earned revenue to
each appropriation group as required by the DFAS interim guidance.
Accordingly, DFAS Cleveland Center accounting personnel arbitrarily allocated
more than 71 percent, or $4 billion of earned revenue, to the Operation and
Maintenance appropriation and allocated the remaining $1.5 billion to the other
five appropriation groups. That practice was not in compliance with the interim
guidance, which requires DoD accounting centers to work with levels 1, 2, and
3 trading partners to obtain their aggregate accounts receivable, revenue, and
unearned revenue for the appropriation group or business area levels for which
they provide service.

             Basic Budgetary and Proprietary Journal Entries. The reliability
of the two journal vouchers, totaling $506 million, made by DFAS Cleveland
Center to adjust the Operation and Maintenance and Procurement appropriation
groups to match the sellers’ information for accounts payable was questionable
because certain proprietary and budgetary accounts were omitted from the
journal vouchers. Also, the adjustment vouchers were not prepared in
accordance with Key Accounting Requirement No. 8, “Audit Trails,” which
states that the financial transactions on accounting system processes must be
adequately supported with pertinent source documents. Also, the omission of
certain proprietary and budgetary accounts caused the Consolidated Statement of
Net Cost, Statement of Budgetary Resources, and Statement of Changes in Net
Position to be understated by the corresponding amount.

                                    9
Conclusion
    FY 1999 was the first year that DFAS Cleveland Center accumulated and
    reported intragovernmental transactions for the Department of the Navy with
    little or no guidance from DoD. However, the $8.1 billion in intragovernmental
    transactions reported in the Navy General Fund consolidated financial
    statements were not reliable and were of limited use. Problems in identifying
    and reporting intragovernmental transactions occurred because of the long-
    standing DoD problems with accounting and financial management reporting
    and the lack of timely guidance from the USD(Comptroller). In addition, DFAS
    Cleveland Center had management control weaknesses in procedures for
    documenting, collecting, compiling, and reporting intragovernmental
    transactions.



Recommendations
    Deleted Recommendation. We deleted draft report Recommendation 1. for the
    USD(Comptroller) to revise guidance because Inspector General, DoD, Report
    No. D-2000-144 made a similar recommendation. In order to avoid a
    duplication, we deleted the recommendation in this report. We renumbered the
    other recommendations accordingly.

    We recommend that the Director, Defense Finance and Accounting Service
    Cleveland Center:

            1. Maintain records for audit trails in accordance with Key Accounting
    Requirement No. 8, “Audit Trails,” for the amounts of intragovernmental
    accounts receivable, revenue, and unearned revenue obtained from the sellers
    for levels 1, 2, and 3.

           2. Develop and implement documented procedures to collect, verify,
    and adjust financial data obtained from other trading partners.

           3. Disclose reasons and causes in the notes to the financial statements if
    accounts receivable are higher than revenues for the same accounting period.

            4. Collect, review, exchange, and reconcile seller-side and buyer-side
    information for all three levels, and disclose reasons for all exceptions in the
    notes to the financial statements.

           5. Maintain records for audit trails for the amounts of intragovernmental
    accounts receivable, revenue, and unearned revenue allocated to each
    appropriation group.

           6. Make accounting adjusting entries for both proprietary and budgetary
    accounts.

                                        10
Management Comments Required
    The Director, Defense Finance and Accounting Service Cleveland Center, did
    not provide comments on a draft of this report. We request that the Director
    provide comments on this final report.




                                      11
Appendix A. Audit Process

Scope
    We reviewed the process that DFAS Cleveland Center used for identifying and
    reporting intragovernmental transactions for FY 1999. We performed a limited
    review of the process that DFAS Kansas City Center used because the amount
    reported was not material. Of the $8.1 billion in intragovernmental elimination
    transactions reported for FY 1999, $562 million was reported by DFAS Kansas
    City Center.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Goals. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate-level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal, subordinate performance goal, and
    performance measures:

               • FY 2001 DoD Corporate-Level Goal 2: Prepare now for an
              uncertain future by pursuing a focused modernization effort that
              maintains U.S. qualitative superiority in key warfighting capabilities.
              Transform the force by exploiting the Revolution in Military Affairs,
              and reengineer the Department to achieve a 21st century
              infrastructure. (01-DoD-2)

               • FY 2001 Subordinate Performance Goal 2.5: Improve DoD
              financial and information management. (01-DoD-2.5)

               • FY 2001 Performance Measure 2.5.1: Reduce the number of
              noncompliant accounting and finance systems. (01-DoD-2.5.1.)

               • FY 2001 Performance Measure 2.5.2: Achieve unqualified
              opinions on financial statements. (01-DoD-2.5.2.)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objective and
    goal.

               • Financial Management Area. Objective: Strengthen internal
              controls. Goal: Improve compliance with the Federal Managers’
              Financial Integrity Act. (FM-5.3)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Defense Financial Management high-risk area.


                                       12
Methodology
    We reviewed applicable laws, policies, procedures, and regulations related to
    the preparation and presentation of intragovernmental eliminating transactions
    for the DoD annual financial statements. We reviewed the DFAS Cleveland
    Center accounting records and journal vouchers, and we held discussions with
    the DFAS Cleveland Center and DFAS Kansas City Center accounting
    personnel responsible for collecting, reviewing, exchanging, and reporting
    intragovernmental transactions. We compared and analyzed the information that
    DFAS Cleveland Center obtained from other trading partners with the
    information reported in the financial statements.

    Use of Computer-Processed Data. We relied on computer-processed data
    from Standard Accounting and Reporting System-Financial and Departmental
    Reporting and Standard Accounting and Reporting System-Field Level, and
    Standard Accounting and Reporting System-Headquarters Command Module to
    conduct the audit at DFAS Cleveland Center. We relied on computer-processed
    data without performing tests of the system’s general and application controls
    because the process for accumulating and reporting intragovernmental
    eliminating transactions at DFAS Cleveland Center is primarily a manual
    process. Not evaluating the controls did not affect the results of the audit.

    Audit Type, Dates, and Standards. We performed this financial-related audit
    from December 1999 through February 2000 in accordance with auditing
    standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DoD. We included tests of management
    controls considered necessary.

    Contact During the Audit. We visited or contacted individuals and
    organizations in DoD for the objectives identified in this audit. Further details
    are available on request.



Management Control Program
    DoD Directive 5010.38, “Management Control (MC) Program,”
    August 26, 1996, requires DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that
    programs are operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of the Management Control Program. We reviewed the
    adequacy of the DFAS Cleveland Center management controls over
    accumulating and reporting intragovernmental transactions that occurred within
    the DoD General Fund organizations and with other Federal Government
    organizations. Specifically, we reviewed the procedures and controls that



                                        13
    DFAS Cleveland Center used to collect, review, exchange, and report
    intragovernmental accounts receivable, revenue, and unearned revenue. We
    reviewed management’s self-evaluation applicable to those controls.

    Adequacy of Management Controls. We identified management control
    weaknesses at DFAS Cleveland Center, as defined by DoD Instruction 5010.40,
    “Management Control (MC) Program Procedures,” August 28, 1996. The
    DFAS Cleveland Center management controls over accumulating and reporting
    intragovernmental transactions were not adequate to eliminate the effects of
    intragovernmental accounting transactions that occurred within the DoD General
    Fund organizations, and with other Federal Government organizations.
    Recommendations 1. through 6., if implemented, will improve management
    controls over reliability of the intragovernmental eliminating entries reporting.
    A copy of this report will be provided to the senior official responsible for
    management controls at DFAS Cleveland Center.

    Adequacy of Management’s Self-Evaluation. The DFAS Cleveland Center
    did not identify the process for accumulating and reporting intragovernmental
    transactions within its assessable units and, therefore, did not identify or report
    the material management control weaknesses identified by this audit.


Prior Coverage
    The General Accounting Office and the Inspector General, DoD, have
    conducted multiple reviews related to financial statement issues. General
    Accounting Office reports can be accessed on the Internet at
    http://www.gao.gov. Inspector General, DoD, reports can be accessed on the
    Internet at http://www.dodig.osd.mil.

    The Inspector General, DoD, issued two other reports on the FY 1999 financial
    statements for the Navy General Fund:
           •   Report No. D-2000-137, “Accounting Entries and Data Processing
               for the FY 1999 Department of the Navy General Fund Financial
               Statements,” June 1, 2000.

           •   Report No. D-2000-081, “Inspector General, DoD, Oversight of the
               Naval Audit Service Audit of the FY 1999 Department of the Navy
               General Fund Financial Statements,” February 14, 2000.




                                         14
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Director, Defense Logistics Studies Information Exchange

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Cleveland Center

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Accounting Office
  National Security and International Affairs Division
      Technical Information Center




                                          15
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                       16
Audit Team Members
   The Finance and Accounting Directorate, Office of the Assistant Inspector
   General for Auditing, DoD, prepared this report.

   F. Jay Lane
   Salvatore D. Guli
   Brian M. Flynn
   Marvin L. Peek
   Hoa H. Pham
   Gopal K. Jain
   Noelle G. Blank




                                     17
